U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

September 24, 2019
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Samarripa v. Kizziah, No. 19-164

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 1,
2019. The government’s response is now due, after one extension, on October 4, 2019. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including October 16, 2019, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Noel J. Francisco
Solicitor General
cc:

See Attached Service List

19-0164
SAMARRIPA, DAVID, ET AL.
GREGORY KIZZIAH, WARDDEN, ET AL.

NICHOLAS GOLDIN
SIMPSON THACHER & BARTLETT LLP
425 LEXINGTON AVE.
NEW YORK , NY 10017-3954
212-455-3685
NGOLDIN@STBLAW.COM
ROBERT E. JOHNSON
JONES DAY
901 LAKESIDE AVENUE
CLEVELAND , OH 44114
216-586-3939
ROBERTJOHNSON@JONESDAY.COM
WILLIAM T. RUSSELL
SIMPSON THACHER & BARTLETT LLP
425 LEXINGTON AVENUE
NEW YORK , NY 10017
212-455-2000
WRUSSELL@STBLAW.COM
KATHERINE B. WELLINGTON
HOGAN, LOVELLS US LLP
555 THIRTEENTH STREET, N.W.
WASHINGTON, DC 20004
202-637-5600
KATHERINE.WELLINGTON@HOGANLOVELL
S.COM

